TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 There Was One Administrative Action With
                 Respect to Violations of Fair Tax Collection
                      Practices in Calendar Year 2005



                                             April 2006

                              Reference Number: 2006-10-070




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  April 21, 2006


 MEMORANDUM FOR CHIEF HUMAN CAPITAL OFFICER
                CHIEF COUNSEL



 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – There Was One Administrative Action With
                               Respect to Violations of Fair Tax Collection Practices in
                               Calendar Year 2005 (Audit # 200610018)

 This report presents the results of our review of violations of Fair Tax Collection Practices. The
 overall objective of this review was to obtain information on any Internal Revenue Service (IRS)
 administrative or civil actions resulting from Fair Tax Collection Practices1 violations by IRS
 employees. Section (§) 1102 (d)(1)(G) of the IRS Restructuring and Reform Act of 19982
 requires the Treasury Inspector General for Tax Administration to include in one of its
 Semiannual Reports to Congress information regarding any administrative or civil actions related
 to the violations of the fair debt collection provisions of 26 U.S.C. § 6304.

 Synopsis
 Our review of 45 cases closed during the period January 1 through December 31, 2005, that were
 coded as Fair Debt Collection Practices Act (FDCPA)3 violations, and an additional
 169 employee misconduct cases that are similar in nature to FDCPA cases, identified
 1 administrative action with respect to violations of Fair Tax Collection Practices. However,
 there were no civil actions that resulted in the IRS paying monetary settlements to taxpayers
 because of a Fair Tax Collection Practices violation.

 1
   26 U.S.C. § 6304 (2004).
 2
   Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
 3
   15 U.S.C. §§ 1601 note, 1692-1692o (2000). The IRS has traditionally referred to the Fair Tax Collection
 Practices violations under 26 U.S.C. § 6304 as “Fair Debt Collection Practices Act” violations.
                             There Was One Administrative Action
                        With Respect to Violations of Fair Tax Collection
                               Practices in Calendar Year 2005



Response
We made no specific recommendations as a result of the analyses performed during this audit.
However, IRS management reviewed a draft of this report and agreed with the facts and findings
presented.
Copies of this report are being sent to the IRS managers affected by the report. Please contact
me at (202) 622-6510 if you have questions or Dan Devlin, Assistant Inspector General for Audit
(Headquarters Operations and Exempt Organizations Programs), at (202) 622-8500.




                                                                                              2
                                       There Was One Administrative Action
                                  With Respect to Violations of Fair Tax Collection
                                         Practices in Calendar Year 2005




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          There Was One Administrative Action With Respect to
          Violations of Fair Tax Collection Practices..................................................Page 3
          No Fair Tax Collection Practices Civil Actions Resulted in
          Monetary Settlements to Taxpayers ...................................................... Page 3

Appendices
Appendix I – Detailed Objective, Scope, and Methodology ....................................Page 5
Appendix II – Major Contributors to This Report ....................................................Page 7
Appendix III – Report Distribution List ...................................................................Page 8
Appendix IV – Fair Tax Collection Practices Provisions.........................................Page 9
                                   There Was One Administrative Action
                              With Respect to Violations of Fair Tax Collection
                                     Practices in Calendar Year 2005




                                             Background

Section (§) 1102 (d)(1)(G) of the Internal Revenue Service (IRS) Restructuring and Reform Act
of 1998 (RRA 98)1 requires the Treasury Inspector General for Tax Administration (TIGTA) to
include in one of its Semiannual Reports to Congress information regarding any administrative
or civil actions related to violations of the fair debt collection provisions of 26 U.S.C. § 6304,
Fair Tax Collection Practices.2 The IRS has traditionally referred to the 26 U.S.C. § 6304
violations as “Fair Debt Collection Practices Act” (FDCPA)3 violations. The TIGTA
Semiannual Report to Congress must provide a summary of such actions and include any
judgments or awards granted.
The law itself does not provide an explanation of what is meant by “administrative actions.” We
used the IRS’ definition when determining the number of FDCPA violations to be reported under
RRA 98 § 1102 (d)(1)(G). The IRS’ definition of administrative actions include disciplinary
actions that range from admonishment to removal. Lesser actions, such as oral or written
counseling, are not considered administrative actions.
As originally enacted, the FDCPA included provisions that restricted various collection abuses
and harassment in the private sector. These restrictions did not apply to Federal Government
practices. However, Congress believed that it was appropriate to require the IRS to comply with
applicable portions of the FDCPA and to be at least as considerate to taxpayers as private
creditors are required to be with their customers (see Appendix IV for a detailed description of
the FDCPA provisions). As such, RRA 98 § 3466(a) required the IRS to follow Fair Tax
Collection Practices in line with the FDCPA.
Taxpayer complaints about IRS employees’ conduct can be reported to several IRS functions for
tracking on its management information systems. If a taxpayer files a civil action or if IRS
management determines that the taxpayer’s rights related to Fair Tax Collection Practices were
potentially violated, the complaint could be referred and then tracked on one or both of the
following IRS systems:
•   Office of Workforce Relations’ Automated Labor and Employee Relations Tracking System
    (ALERTS), which generally tracks employee behavior that may warrant IRS management
    administrative actions.



1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  26 U.S.C. § 6304 (2004).
3
  15 U.S.C. §§ 1601 note, 1692-1692o (2000).
                                                                                                              Page 1
                              There Was One Administrative Action
                         With Respect to Violations of Fair Tax Collection
                                Practices in Calendar Year 2005


•   Office of Chief Counsel’s Counsel Automated System Environment (CASE), which is an
    inventory control system that tracks items such as taxpayer civil actions or bankruptcies.
The IRS began tracking FDCPA codes on the ALERTS in March 1999 and on the CASE in
June 1999.
For the Calendar Year 2005 review, we analyzed closed cases from the ALERTS and the CASE
to identify violations of Fair Tax Collection Practices. However, we could not ensure the cases
recorded on the ALERTS and the CASE constitute all Fair Tax Collection Practices violations.
Furthermore, the scope of our audit was not intended to determine the accuracy or consistency of
disciplinary actions taken against employees for Fair Tax Collection Practices violations that
were not reported to the Office of Workforce Relations.
This review was performed at the Chief Human Capital and Chief Counsel Offices in the IRS
National Headquarters in Washington, D.C., during the period January to March 2006. The audit
was conducted in accordance with Government Auditing Standards. Detailed information on our
audit objective, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




                                                                                           Page 2
                                  There Was One Administrative Action
                             With Respect to Violations of Fair Tax Collection
                                    Practices in Calendar Year 2005




                                      Results of Review

There Was One Administrative Action With Respect to Violations of
Fair Tax Collection Practices
There were 45 cases initially coded as FDCPA complaints closed on the ALERTS during the
period January 1 through December 31, 2005.4 However, only 14 of the 45 cases involved
administrative actions being taken against employees. Of the 14 cases with administrative
actions, none were a violation of the FDCPA; 12 cases were miscoded in the ALERTS, and the
allegations related to the FDCPA were not substantiated for the other 2 cases. Most of the
miscoded cases involved unprofessional conduct of employees.
Because of the high number of miscoded cases, we also reviewed 169 additional cases involving
employee misconduct allegations that are similar in nature to violations of Fair Tax Collection
Practices and identified 1 case that was an FDCPA violation. The case involved an IRS
employee using profane language in the presence of a taxpayer or taxpayer’s representative
while in the course of performing official duties. The case should have been coded as a violation
of Fair Tax Collection Practices instead of unprofessional conduct of an employee. The
employee left the IRS in lieu of removal.
Oral or written counseling is not considered an administrative action under the IRS’ definition.
Since the IRS does not routinely track all informal oral counseling or minor actions against its
employees, it is not possible to determine how often, and for what reasons, informal oral
counseling or other minor disciplinary actions occurred.

No Fair Tax Collection Practices Civil Actions Resulted in Monetary
Settlements to Taxpayers
Section 7433 of the Internal Revenue Code provides that a taxpayer may bring a civil action for
damages against the Federal Government if an officer or employee of the IRS recklessly or
intentionally, or by reason of negligence, disregards any provision of the Internal Revenue Code,
or related regulation, in connection with the collection of Federal tax.


4
 This included cases opened after July 22, 1998, and closed during the period January 1 through
December 31, 2005.




                                                                                                  Page 3
                             There Was One Administrative Action
                        With Respect to Violations of Fair Tax Collection
                               Practices in Calendar Year 2005


There were no cases closed on the CASE for which the IRS paid damages to taxpayers resulting
from a civil action filed due to a Fair Tax Collection Practices violation.




                                                                                      Page 4
                                 There Was One Administrative Action
                            With Respect to Violations of Fair Tax Collection
                                   Practices in Calendar Year 2005


                                                                                            Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this audit was to obtain information on any Internal Revenue Service (IRS)
administrative or civil actions resulting from Fair Tax Collection Practices (FTCP)1 violations by
IRS employees. Specifically, we:
I.      Identified the number of FTCP violations resulting in administrative actions.
        A.      Obtained a computer extract from the Automated Labor and Employee Relations
                Tracking System (ALERTS)2 of any cases opened after July 22, 1998, coded as Fair
                Debt Collection Practices Act3 violations (Issue Codes 141 to 147), and closed
                during the period January 1 through December 31, 2005. We analyzed the ALERTS
                extract and obtained additional case file information from the Labor Relations
                function, if needed, to determine the type of violation.
        B.      Determined if any cases involving FTCP violations resulted in administrative
                actions.
        C.      Obtained a computer extract from the ALERTS of any cases opened after
                July 22, 1998, with the following Issue Codes:
                •    058 (Unprofessional Conduct - limited to only those closed with a disposition
                     code of 009 or higher).
                •    114 (Conviction Assault/Battery - all disposition codes).
                •    119 (Threat of Audit/Personal - all disposition codes).
                •    999 (Not Otherwise Coded - limited to only those closed with a disposition
                     code of 009 or higher) and closed during the period January 1 through
                     December 31, 2005.
                Note: We did not attempt to independently validate the accuracy of the complete
                ALERTS database for this review. We limited our work to only assess the
                accuracy of the Issue Codes for those cases which met our criteria as listed in
                steps I.A through I.C.


1
  26 U.S.C. § 6304 (2004).
2
  The Office of Workforce Relations’ ALERTS generally tracks employee behavior that may warrant IRS
management administrative actions.
3
  15 U.S.C. §§ 1601 note, 1692-1692o (2000).
                                                                                                      Page 5
                                 There Was One Administrative Action
                            With Respect to Violations of Fair Tax Collection
                                   Practices in Calendar Year 2005


II.     Identified the number of FTCP violations resulting in IRS civil actions (judgments or
        awards granted) by obtaining a computer extract from the Counsel Automated System
        Environment4 database of any Subcategory 6304 (established to track FTCP violations)
        cases opened after July 22, 1998, and closed during the period January 1 through
        December 31, 2005. The Office of Chief Counsel identified no cases.




4
  The Counsel Automated System Environment is an Office of Chief Counsel inventory control system that tracks
items such as taxpayer civil actions or bankruptcies.
                                                                                                        Page 6
                             There Was One Administrative Action
                        With Respect to Violations of Fair Tax Collection
                               Practices in Calendar Year 2005


                                                                              Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Carl L. Aley, Acting Director
Kevin P. Riley, Audit Manager
Tom J. Cypert, Lead Auditor
Frank I. Maletta, Auditor
William E. Thompson, Auditor




                                                                                       Page 7
                            There Was One Administrative Action
                       With Respect to Violations of Fair Tax Collection
                              Practices in Calendar Year 2005


                                                                   Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Chief C
Deputy Commissioner for Operations Support OS
Director, Workforce Relations OS:HC:R
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons: Chief Counsel CC
                 Chief Human Capital Officer OS:HC




                                                                           Page 8
                                   There Was One Administrative Action
                              With Respect to Violations of Fair Tax Collection
                                     Practices in Calendar Year 2005


                                                                                                 Appendix IV

              Fair Tax Collection Practices Provisions

To ensure equitable treatment among debt collectors in the public and private sectors, the
Internal Revenue Service (IRS) Restructuring and Reform Act of 19981 requires the IRS to
comply with certain provisions of the Fair Debt Collection Practices Act.2 Specifically, the IRS
may not communicate with taxpayers in connection with the collection of any unpaid tax:
    •    At unusual or inconvenient times.
    •    If the IRS knows that the taxpayer has obtained representation from a person authorized
         to practice before the IRS, and the IRS knows or can easily obtain the representative’s
         name and address.
    •    At the taxpayer’s place of employment, if the IRS knows or has reason to know that such
         communication is prohibited.
Further, the IRS may not harass, oppress, or abuse any person in connection with any tax
collection activity or engage in any activity that would naturally lead to harassment, oppression,
or abuse. Such conduct specifically includes, but is not limited to:
    •    Use or threat of violence or harm.
    •    Use of obscene or profane language.
    •    Causing a telephone to ring continuously with harassing intent.
    •    Placement of telephone calls without meaningful disclosure of the caller’s identity.




1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
2
  15 U.S.C. §§ 1601 note, 1692-1692o (2000).
                                                                                                              Page 9
